APPENDIX

Appendix A

From: ca9_ecfnoticing@ca9.uscourts.gov <ca9_ecfnoticing@ca9.uscourts.gov>
Sent: Tuesday, July 27, 2021 4:34 PM
To: Brenner, Samuel <Samuel.Brenner@ropesgray.com>
Subject: 18‐70780 Bilal Hussain v. Merrick Garland "Clerk Text Order Filed (Process Merits Panel
Motions)"

[EXTERNAL]
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se litigants) to
receive one free electronic copy of all documents filed electronically, if receipt is required
by law or directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing.
United States Court of Appeals for the Ninth Circuit
Notice of Docket Activity
The following transaction was entered on 07/27/2021 at 1:33:57 PM PDT and filed on
07/27/2021
Bilal Hussain v. Merrick Garland
Case Name:
Case Number: 18-70780

Docket Text:
Filed text clerk order (Deputy Clerk: OC): Petitioner’s motion to stay the mandate [90], is
denied. [12184311] (OC)
Notice will be electronically mailed to:
Samuel L. Brenner, Attorney: samuel.brenner@ropesgray.com, courtalert@ropesgray.com
Jesi J. Carlson, Senior Litigation Counsel: jesi.j.carlson@usdoj.gov
Kristen A. Giuffreda, Trial Attorney: kristen.giuffreda@usdoj.gov,
melodie.t.nicholson@usdoj.gov
Douglas Hallward-Driemeier: douglas.hallward-driemeier@ropesgray.com,
courtalert@ropesgray.com
Chief Counsel ICE: opla9cir@ice.dhs.gov
OIL: Ninth.Circuit.OIL@usdoj.gov
Anne Elizabeth Peterson: petersonanne@uchastings.edu, cgrs-litigation@uchastings.edu, annepeterson-9915@ecf.pacerpro.com
Meredythe M. Ryan: meredythe.ryan@ropesgray.com, courtalert@ropesgray.com
Stefan Schropp: stefan.schropp@ropesgray.com, courtalert@ropesgray.com
Lauren Gallo White: lwhite@wsgr.com, dgrubbs@wsgr.com

1a

Appendix B
Case: 18-70780, 07/14/2021, ID: 12172492, DktEntry: 89, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

JUL 14 2021

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

BILAL HUSSAIN,

No.

Petitioner,

18-70780

Agency No. A209-171-424

v.
ORDER
MERRICK B. GARLAND, Attorney
General,
Respondent.
Before: CALLAHAN, BUMATAY, and VANDYKE, Circuit Judges.
The panel judges have voted to deny the petitioner’s petition for panel
rehearing and rehearing en banc. The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
Petitioner’s petition for panel rehearing and rehearing en banc, filed March
29, 2021, is DENIED.

2a

Appendix C

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 1 of 26

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BILAL HUSSAIN,

No. 18-70780
Petitioner,
Agency No.
A209-171-424

v.
JEFFREY A. ROSEN, Acting Attorney
General,
Respondent.

OPINION

On Petition for Review of an Order of the
Board of Immigration Appeals
Argued and Submitted August 12, 2020
Pasadena, California
Filed January 11, 2021
Before: Consuelo M. Callahan, Patrick J. Bumatay, and
Lawrence VanDyke, Circuit Judges.
Opinion by Judge VanDyke

3a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 2 of 26

2

HUSSAIN V. ROSEN
SUMMARY *

Immigration
Denying Pakistani national Bilal Hussain’s petition for
review of a decision of the Board of Immigration Appeals,
the panel held that substantial evidence supported the denial
of asylum, withholding of removal, and protection under the
Convention Against Torture, and that the immigration judge
did not deprive Hussain of due process.
The panel held that the IJ provided Hussain, who was pro
se, due process by providing details about the structure of the
hearing and the availability of counsel, and asking numerous
questions through which Hussain had ample opportunity to
develop his testimony. The panel rejected Hussain’s
assertion that the IJ repeatedly misled him about what he
needed to show to meet his burdens by asking open-ended
questions and failing to adequately probe the record. Rather,
the panel explained that the IJ developed the record in its role
as an independent fact-finder, and it was Hussain’s
responses that determined the scope of the testimony
elicited. The panel also rejected Hussain’s reliance on
Jacinto v. INS, 208 F.3d 725 (9th Cir. 2000), for the
proposition that IJs must go beyond their impartial role and
instead essentially act as advocates for pro se asylum
applicants. The panel explained that it could not read
Jacinto’s imprecise “fully-develop-the-record-for-pro-sepetitioners” dicta as expansively as Hussain seeks without
doing serious harm to the adversarial process established by
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

4a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 3 of 26

HUSSAIN V. ROSEN

3

Congress for petitioners like Hussain. The panel also
concluded that, even if Hussain could demonstrate error, he
did not show prejudice, where he failed to point to any
additional evidence concerning past persecution or the other
grounds upon which the Board denied relief.
The panel held that the evidence did not compel the
finding of past persecution, where Hussain did not testify to
any individualized physical attacks or threats, and he failed
to show sufficient economic or psychological harm.
The panel also held that Hussain failed to establish that
the Pakistani government was unable to control the Taliban,
noting that Hussain failed to report his two attacks to
authorities, and that record evidence demonstrated that the
government’s significant efforts to combat terrorism and
sectarian violence had resulted in a substantial reduction in
terror-related fatalities. Although Hussain argued that he did
not report the attacks because police provide no protection,
the panel noted that even if the government’s response to
Hussain’s two attacks was lacking, the standard is not that
the government can prevent all risk of harm.
The panel held that Hussain failed to establish that he
could not reasonably relocate within Pakistan to avoid future
persecution. The panel rejected Hussain’s arguments that it
would be unreasonable for him to relocate to an unfamiliar
town without family, or because he would need to live in a
rented space or with a host family. The panel also noted that
Hussain failed to show there were restrictions on movement
in areas outside the areas of high unrest that Hussain would
assumedly seek to avoid. The panel also explained Hussain
could not successfully argue that relocation was
unreasonable because the country at large is subject to

5a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 4 of 26

4

HUSSAIN V. ROSEN

generalized violence, because he did not show he is at risk
of country-wide targeted persecution.
The panel also held that substantial evidence supported
the denial of CAT protection because Hussain failed to
establish that he faces a particularized risk of torture, and
never alleged, in the record or in his testimony, that he ever
suffered any harm—“severe pain or suffering”—that rose to
the level of torture.

COUNSEL
Salmah Y. Rizvi (argued) and Douglas H. HallwardDriemeier, Ropes & Gray LLP, Washington, D.C., for
Petitioner.
Kristen A. Giuffreda (argued), Trial Attorney; Shelley R.
Goad, Assistant Director; Joseph H. Hunt, Assistant
Attorney General; Office of Immigration Litigation, Civil
Division, United States Department of Justice, Washington,
D.C.; for Respondent.

OPINION
VANDYKE, Circuit Judge:
Pakistani national Bilal Hussain (Hussain) attempted to
enter the United States near Otay Mesa, California without
valid documentation, stating he feared persecution from the
Taliban in his native Pakistan. The Department of
Homeland Security initiated removal proceedings, and
Hussain petitioned for asylum, withholding of removal, and
protection under the Convention Against Torture (CAT).

6a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 5 of 26

HUSSAIN V. ROSEN

5

At his removal hearing, Hussain testified before the
Immigration Judge (IJ) that the Taliban burned down his
jewelry store in an attack on his hometown in 2007, but
never hurt or personally threatened him or his family during
that attack or at any other time, including up to when Hussain
left Pakistan in September 2015. Hussain also submitted
documents describing a subsequent 2012 Taliban attack on
a convoy of cars that he was traveling with. The attack did
not injure Hussain, but in fleeing he lost the business
inventory in his car. The IJ asked Hussain open-ended
questions about his experiences with the Taliban and never
received any information suggesting Hussain was
specifically targeted, and ultimately determined that Hussain
failed to meet his burden of proof for asylum, withholding
of removal, or CAT.
The Board of Immigration Appeals (BIA) affirmed,
noting that Hussain never testified or submitted evidence
claiming any actual injury caused by the Taliban, or that the
Taliban individually targeted or attacked him for any reason.
The BIA also concluded that the IJ provided Hussain due
process because there was no indication in the transcript or
the appeal that Hussain did not understand the proceedings
or that there were facts he was “unable to present.”
Hussain seeks review of the BIA’s decision, and we have
jurisdiction under 8 U.S.C. § 1252. We dismiss Hussain’s
due process claims and deny review of his petition because
the IJ provided Hussain with a full opportunity to present
testimony, and the record does not compel the conclusion
that the agency erred in determining that Hussain’s
description of generalized violence did not meet his burden
of proof to show targeted persecution or torture.

7a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 6 of 26

6

HUSSAIN V. ROSEN

I. BACKGROUND
At the start of Hussain’s first hearing before the
Immigration Court, the IJ explained his statutory rights as a
petitioner, detailed the court’s procedures, told him he had
the right to an attorney, and continued the hearing to allow
Hussain to find an attorney. The IJ also described the role
of the facility’s “legal orientation provider (LOP),” and
placed Hussain on the LOP list. Hussain chose to receive
LOP assistance instead of retaining counsel.
During Hussain’s hearing, the IJ asked “why [he was]
afraid to return to Pakistan.” When asked to describe his first
Taliban encounter, Hussain described an incident in 2007
where “the Talibans [sic] were passing through our town,
and we did not give them the way,” causing the Taliban “to
fire on the people and in the market.” Neither Hussain nor
his family were injured or targeted in the attack. 1 He
testified his jewelry shop was among others that the Taliban
burned, and that the Taliban later killed people and blocked
the roads. Hussain testified that no police or military
responded to this particular attack, but described that the end
of the encounter occurred when people from his village
“attacked back.” Hussain’s hometown is located within the
FATA region, where “[i]n lieu of police, . . . [t]ribal leaders
convene . . . tribal militias . . . not . . . formal law
enforcement entities.” Hussain remained in his hometown
of Parachinar until 2015, and testified he had no further
interaction with the Taliban there.

1
Hussain initially testified he was fired at by the Taliban, but did
not elaborate when later asked if he “had any other adverse incidents
with the Taliban.”

8a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 7 of 26

HUSSAIN V. ROSEN

7

Hussain responded “no” when the IJ asked if he was
“ever harmed,” if “anybody threaten[ed]” him, or if at “any
time at all . . . anybody harmed or threatened [him] in
Pakistan.” Hussain also denied any problems with the police
or any threats to his wife, children, mother, brothers, or
sisters. 2
The IJ considered this evidence and concluded Hussain
“was not a victim of past persecution.” The IJ ultimately
found Hussain credible, but not “100 percent accurate as to
country conditions in Pakistan.” The IJ acknowledged that
the 2015 and 2016 country reports for Pakistan described “a
culture of lawlessness” in Hussain’s region, but also showed
“that the government is making great efforts to try to control
the violence that is committed by . . . the Taliban.” The IJ
thus found Hussain “has not established a well-founded fear
of future persecution on account of a protected ground,” nor
does he “have a nexus to a protected ground if he fears
general violence in his home country.” (emphasis added).
The IJ denied Hussain’s applications because he was never
“harmed in the past, let alone tortured,” and “could live in
other locations in Pakistan without fearing or suffering any
harm at the hands [of] the Taliban.” And given that “the
government has taken great strides to crack down on the
Taliban,” Pakistan was not “unable or unwilling to control
the Taliban.”
The BIA affirmed, noting that there was no indication in
the transcript or the appeal that Hussain did not understand
the proceedings or was “unable to present” any facts. The
2
Hussain testified that “[o]nce, in Peshawar, a couple of boys had
followed me,” but Hussain went into a hotel and the boys did not harm
him. He also testified that his father was threatened once in 2015 “by
the Sunnis from [his] village,” but that his father was never harmed.

9a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 8 of 26

8

HUSSAIN V. ROSEN

BIA agreed with the IJ that Hussain “was never physically
harmed or personally threatened in Pakistan” and concluded
that the IJ did not err in failing to probe a 2012 convoy attack
described only in Hussain’s written application because
Hussain did not allege the attack targeted or injured him
specifically. 3 The BIA determined that “any future harm
3

Hussain’s application included two letters from the Anjuman-eHussania, a committee in Hussain’s hometown. The first detailed how
after the 2007 incident Hussain did not immediately re-establish his
jewelry store, but because he was a “Tailor Master” he continued his
other tailoring job despite the “huge financial los[s].” The letter
described a second Taliban attack in 2012 on a convoy of vehicles, one
of which Hussain was riding in. Hussain’s vehicle was “in the last row”
and drove away to escape the attack, but in doing so “fell down in the
pitch and all the jewellers [sic] [were] lost.” Hussain was not injured.
The parties dispute whether a second letter from the Anjuman-eHussania describing Hussain’s community activities in Parachinar was
included in the record. We assume without deciding that it was, but it
does not affect the analysis. According to the second letter, as an “active
member of Passdaran,” Hussain “helped the homeless peoples and taken
injuries [sic] to the hospital for treatment during crises in the area. Due
to which Taliban terrorists threatened him and his family members to
kill or kidnap.” (emphasis added). The IJ asked multiple questions that
would have allowed Hussain to elaborate on the Taliban’s “threat[]”
nonspecifically referenced by this one sentence in the second letter.
Hussain provided no additional detail. “Our court generally treats
unfulfilled threats, without more, as within that category of conduct
indicative of a danger of future persecution, rather than as past
persecution itself.” Lim v. INS, 224 F.3d 929, 936 (9th Cir. 2000).
Moreover, “vague and conclusory allegations . . . are clearly
insufficient” to support a petitioner’s claim of persecution; “[o]ur case
law has consistently required more.” Mendez-Gutierrez v. Gonzales,
444 F.3d 1168, 1172 (9th Cir. 2006); see also id. at 1170 (“We cannot
conclude that the unspecified threats against Mendez-Gutierrez were
sufficiently menacing to constitute past persecution, as we do not even
know what the threats entailed.” (citation omitted)). In contrast to this
one anomalous, bare assertion in the letter, Hussain’s testimony—which
we take as true (as the IJ did)—provides substantial evidence that neither

10a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 9 of 26

HUSSAIN V. ROSEN

9

[Hussain] may suffer in Pakistan would not constitute
‘persecution’ under the Act because” of the Pakistani
government’s “significant efforts to combat terrorist
organizations.” And the fact that “terrorist attacks continue
in Pakistan . . . is insufficient” on its own to conclude the
government was unable to control the Taliban. Although
Hussain testified that the police did not intervene after the
2007 attack on his village, the BIA concluded the single
incident did not in itself demonstrate the government’s
inability or unwillingness “to protect him from the Taliban.”
The BIA therefore found no clear error in the IJ’s conclusion
that Hussain failed to meet his burden of proof for asylum,
withholding of removal, or CAT protection.
II. STANDARD OF REVIEW
We review the BIA’s factual findings underlying its
determination that a petitioner failed to establish eligibility
for asylum, withholding of removal, and protection under
CAT for substantial evidence. Hanna v. Keisler, 506 F.3d
933, 937, 940 (9th Cir. 2007) (asylum and withholding of
removal); Zheng v. Ashcroft, 332 F.3d 1186, 1193 (9th Cir.
2003) (CAT). We reverse the BIA only where “any
reasonable adjudicator would be compelled to conclude to
the contrary.” Ali v. Holder, 637 F.3d 1025, 1029 (9th Cir.
2011) (citation omitted). “The possibility of drawing two
inconsistent conclusions from the evidence does not prevent
an administrative agency’s finding from being supported by
substantial evidence.” Go v. Holder, 640 F.3d 1047, 1054
(9th Cir. 2011) (citation omitted). Accordingly, review of
the Board’s eligibility determinations in this regard is

he nor his family were ever the specific targets of the Taliban’s
generalized violence.

11a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 10 of 26

10

HUSSAIN V. ROSEN

“extremely deferential.” Ghaly v. INS, 58 F.3d 1425, 1431
(9th Cir. 1995).
III.

DUE PROCESS

As an initial matter, Hussain claims the IJ did not
sufficiently explain the proceedings and did not ask him
adequately probing questions, resulting in a denial of due
process. 4 A petitioner facing removal “is entitled to a full
and fair hearing of his claims and a reasonable opportunity
to present evidence on his behalf.” Colmenar v. INS,
210 F.3d 967, 971 (9th Cir. 2000). We “will reverse the
BIA’s decision on due process grounds if the proceeding was
‘so fundamentally unfair that the alien was prevented from
reasonably presenting his case.’” Id. (citation omitted). To
prevail on such a claim, a petitioner must also demonstrate
“substantial prejudice.” Lata v. INS, 204 F.3d 1241, 1246
(9th Cir. 2000).
A. The Fairness of the Proceedings
1. The IJ Explained the Legal Procedures.
“[T]he Fifth Amendment entitles aliens to due process of
law in deportation proceedings.” Reno v. Flores, 507 U.S.
292, 306 (1993). But because “an alien in civil removal
proceedings is not entitled to the same bundle of
constitutional rights afforded defendants in criminal
4

Hussain also argues that the IJ did not provide due process because
the IJ declined to enter certain photographs and a memory card into the
record during his hearing. As this claim was not raised before the BIA,
we cannot address it here. Brezilien v. Holder, 569 F.3d 403, 412 (9th
Cir. 2009) (“Because Brezilien failed to exhaust his administrative
remedies as to this alleged procedural error, we lack jurisdiction to
review it.”).

12a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 11 of 26

HUSSAIN V. ROSEN

11

proceedings . . . ‘various protections that apply in the context
of a criminal trial do not apply in a deportation hearing.’”
Valencia v. Mukasey, 548 F.3d 1261, 1263 (9th Cir. 2008)
(quoting Ramirez-Osorio v. INS, 745 F.2d 937, 944 (5th Cir.
1984)). As an adversarial process, immigration proceedings
are impartial proceedings where petitioners may make their
case, but are not entitled to the IJ’s legal assistance in doing
so. Crucially, a pro se “alien has no blanket right to be
advised of the possibility of asylum” in a hearing before an
Immigration Judge. Valencia, 548 F.3d at 1263. As required
by statute, an IJ must ensure “the alien shall have a
reasonable opportunity to examine the evidence against the
alien, to present evidence on the alien’s own behalf, and to
cross-examine witnesses presented by the Government.” 8
U.S.C. § 1229a(b)(4)(B). In considering whether Hussain
received due process, “[t]he critical question is ‘[w]hether
the IJ’s actions prevented the introduction of significant
testimony.’” Oshodi v. Holder, 729 F.3d 883, 890 (9th Cir.
2013) (citation omitted).
Here, the IJ ensured that Hussain understood and had the
opportunity to access all manner of procedural assistance to
“introduc[e] [] significant testimony.” Id. The IJ explained
Hussain’s statutory rights, detailed the court procedures, and
ensured Hussain had the opportunity to procure a lawyer if
he wanted one. Instead, Hussain ultimately chose to receive
LOP assistance in preparing his asylum application.
2. The IJ Developed the Record.
During the hearing, the IJ asked Hussain multiple broad
questions to elicit testimony explaining why Hussain was
“afraid to return to Pakistan.” Hussain faults the IJ’s openended questions, arguing that the IJ needed to explicitly
detail the elements of a claim for asylum and failed to
“adequately probe the record” for nuggets that might lend

13a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 12 of 26

12

HUSSAIN V. ROSEN

support to Hussain’s claims. Consequently, Hussain argues
that he was “repeatedly misled” by the IJ as to what he
needed to show to meet his burdens.
The IJ developed the record in its role as an independent
fact-finder, and it was Hussain’s responses that determined
the scope of the testimony elicited. By starting the
questioning at a general level, the IJ let Hussain control the
testimony presented, while being prepared to drill down
based on whatever Hussain provided, rather than curtailing
or improperly influencing the testimony ex ante. This was
not a violation of due process. See Agyeman v. INS, 296 F.3d
871, 884 (9th Cir. 2002) (“The IJ must be responsive to the
particular circumstances of the case . . . .” (emphasis
added)). Notwithstanding the adversarial character of the
proceedings, the IJ repeatedly sought clarification of
Hussain’s answers and gave him multiple opportunities to
expand his testimony. Hussain framed the landscape of his
testimony in this case through his answers to these questions.
Hussain’s argument that he was nonetheless misled
demands too much of the IJ, and if accepted would
fundamentally alter the well-recognized adversarial nature
of immigration proceedings. The IJ was not required to ask
Hussain leading questions and feed him the types of
scenarios sufficient to achieve asylum. That could change
the IJ’s role from that of an impartial adjudicator to
effectively being an advocate for the petitioner—a role that
our court has repeatedly rejected. 5 C.F.R. § 2635.101(b)(8)
(delineating that IJs have a neutral role and “shall act
impartially and not give preferential treatment to any . . .
individual”); C.J.L.G. v. Barr, 923 F.3d 622, 636 (9th Cir.
2019) (Paez, J., concurring) (emphasizing that, despite the
IJ’s duty to enable the petitioner to present testimony, “the
IJ cannot be a[n] . . . advocate”); United States v. Moriel-

14a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 13 of 26

HUSSAIN V. ROSEN

13

Luna, 585 F.3d 1191, 1197–98 (9th Cir. 2009) (“We do not
require IJs to speculate about the possibility of anticipated
changes of circumstances and advise aliens of facts not
suggested in the record,” nor does “our precedent . . . require
that an IJ act creatively to advise an immigrant of ways in
which his legal prospects at forestalling deportation might
improve with fundamental changes in his status.”); Bui v.
INS, 76 F.3d 268, 271 (9th Cir. 1996) (“The regulations do
not require the IJ to scour the entire record or to interrogate
an alien regarding all possible avenues of relief . . . .”).
Despite the IJ’s broad queries in this case, Hussain
argues that Ninth Circuit precedent demands that IJs go
beyond their impartial role and instead essentially act as
advocates for pro se asylum applicants. That is wrong.
Hussain emphasizes Jacinto v. INS, 208 F.3d 725, 732–33
(9th Cir. 2000), where he claims this court “remanded where
the IJ did not ask the applicant questions about her
persecutor’s motive.” But Hussain miscomprehends the
holding and import of Jacinto, relying on hypothetical
questions from that case that this court in dicta said the IJ
might have asked. Id. at 732. The actual reason this court in
Jacinto found a violation of due process was because the IJ
there “did not clearly explain either that she had the right to
testify even if she was represented by a lawyer . . . and
perhaps most important, the [IJ] never gave her the
opportunity to present her own additional narrated
statement.” Jacinto, 208 F.3d at 734 (emphases added).
That was the due process violation in Jacinto. Here, in
contrast, the IJ gave Hussain multiple opportunities to
expound upon the documents he provided and explicit
instructions and options regarding counsel.
Hussain’s attempt to leverage the panel’s dicta in Jacinto
into a far more sweeping requirement for IJs doesn’t work,

15a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 14 of 26

14

HUSSAIN V. ROSEN

in large part because our court’s remand in Jacinto
represents the high-water mark of what due process can
require in Immigration Court hearings—at least as long as
they remain adversarial hearings. In contrast to the specific
reason it gave for remanding in Jacinto, the majority in that
case—relying on a handbook from the United Nations, a
Ninth Circuit dissent, and the very different, non-adversarial
fora of Social Security hearings—also attempted to
transplant the statement, oft-repeated by Hussain, that a
Social Security ALJ “must ‘scrupulously and
conscientiously probe into, inquire of, and explore for all the
relevant facts.’” Jacinto, 208 F.3d at 733 (citation omitted).
Pointing to language describing the ALJ’s role in that
statutorily distinct, non-adversarial context, the Jacinto
majority—in language as sweeping as it is ambiguous—
stated that, like Social Security ALJs, IJs are similarly
“obligated to fully develop the record in those circumstances
where applicants appear without counsel.” Jacinto, 208 F.3d
at 734 (emphasis added). Overreading this inherently
indeterminate standard, as Hussain asks us to do, would
supplant the adversarial process required by Congress in
these proceedings with a non-adversarial process improperly
borrowed from the very different Social Security context.
However we may properly interpret Jacinto’s imprecise
“fully-develop-the-record-for-pro-se-petitioners” dicta, we
cannot read it as expansively as Hussain seeks without doing
serious harm to the adversarial process established by
Congress for petitioners like Hussain. The core of the due
process right afforded petitioners in immigration
proceedings is the opportunity to testify. IJs need not—
indeed, cannot—essentially act as Sherpas for pro se
petitioners, guiding them in making their case. Extending
Jacinto as Hussain urges would put that case in unnecessary
conflict with our court’s other, later, precedent, which holds

16a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 15 of 26

HUSSAIN V. ROSEN

15

that due process has been provided whenever “an alien [is]
given a full and fair opportunity to be represented by
counsel, to prepare an application for [immigration] relief,
and to present testimony and other evidence in support of the
application.” Vargas-Hernandez v. Gonzales, 497 F.3d 919,
926–27 (9th Cir. 2007); see also Lopez-Umanzor v.
Gonzales, 405 F.3d 1049, 1056 (9th Cir. 2005) (“We will
grant a petition for review from a BIA decision on due
process grounds if the proceeding was so fundamentally
unfair that the alien was prevented from reasonably
presenting [his or her] case.”) (emphasis added) (citation
omitted)). 5
Here, the IJ provided Hussain due process by providing
details about the structure of the hearing, the availability of
counsel, and asking numerous questions through which
Hussain had ample opportunity to develop his testimony.
See Ramirez v. Sessions, 902 F.3d 764, 772 (8th Cir. 2018)
(finding the IJ provided due process by asking “relevant fact
questions” and then “three open-ended questions allowing
[the petitioner] an opportunity to elaborate”).
B. Prejudice
“To prevail on a due process challenge to deportation
proceedings, [the petitioner] must show [both] error and
5

The other cases Hussain cites where we have found due process
violations have no resemblance to this case. See, e.g., Pangilinan v.
Holder, 568 F.3d 708, 709–10 (9th Cir. 2009) (finding due process
violated where the IJ delegated all questioning of the pro se petitioner to
the government’s attorney); Agyeman, 296 F.3d at 877 (finding due
process violated where the IJ required testimony from an inaccessible
witness for the petitioner to present his application); Colmenar, 210 F.3d
at 971–72 (finding due process violated where the IJ affirmatively
prevented petitioner’s testimony).

17a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 16 of 26

16

HUSSAIN V. ROSEN

substantial prejudice.” Grigoryan v. Barr, 959 F.3d 1233,
1240 (9th Cir. 2020) (citation omitted). Even if Hussain
could demonstrate error (he hasn’t), he cannot show
prejudice. 6 Although Hussain claims he would have
provided many more details about his political and religious
background if asked, he doesn’t point to any additional
evidence of persecution or the grounds upon which the BIA
denied him asylum. See, infra, §§ IV.B, IV.C. And some of
the testimony Hussain now claims he would have proffered
is belied by the actual testimony he gave.
To reiterate: the IJ asked broad questions to give Hussain
the opportunity to testify to whatever he wished. Hussain’s
allegations that he would have provided different answers to
more pointed questions are unpersuasive and do not establish
prejudice. Hussain claims he would have told the IJ about
direct threats the Taliban made to him before burning down
his shop in 2007. But when the IJ broadly asked “[what
happened] the first time you had a problem with the
Taliban?,” Hussain only said the “Talibans [sic] were
passing through our town, and we did not give them the
way.” Hussain claims he would have testified about Taliban
threats against himself specifically from 2007 to 2015 for his
anti-Taliban politics, but to the IJ he denied receiving any
threats because “[t]hey don’t threaten you . . . they just kills
[sic] you.” Hussain says he would have described injuries
from the 2012 convoy attack, but when asked “were there
any times—was there any time at all that anybody harmed or
6

Hussain argues prejudice is presumed by relying on two cases, one
where the petitioner was prevented from testifying altogether and
another where the petitioner received an incomprehensible translation
during proceedings. See Colmenar, 210 F.3d at 971–72; Perez-Lastor v.
INS, 208 F.3d 773, 778–80 (9th Cir. 2000). While Hussain may overread
those cases to say we presumed prejudice, neither is like this case.

18a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 17 of 26

HUSSAIN V. ROSEN

17

threatened you in Pakistan?” Hussain answered, “No. I was
not beaten up or anything like that, no.” Hussain cannot now
claim he was prejudiced when the IJ’s exact questions could
have elicited the very responses Hussain claims he was
unable to provide.
IV.

ASYLUM & WITHHOLDING OF REMOVAL

To meet the burden for asylum because of past
persecution, the petitioner “has the burden of establishing
that (1) his treatment rises to the level of persecution; (2) the
persecution was on account of one or more protected
grounds; and (3) the persecution was committed by the
government, or by forces that the government was unable or
unwilling to control.” Baghdasaryan v. Holder, 592 F.3d
1018, 1023 (9th Cir. 2010). A petitioner who cannot show
past persecution might nevertheless be eligible for relief if
he instead shows a “well-founded fear of future persecution”
along with the other elements. See id.; Wakkary v. Holder,
558 F.3d 1049, 1060 (9th Cir. 2009). Even if the standard is
met, an applicant is still ineligible for asylum if it would be
reasonable under the circumstances to relocate within the
country to avoid future persecution. Kaiser v. Ashcroft,
390 F.3d 653, 659 (9th Cir. 2004). Because the asylum
standard is more lenient than withholding of removal’s
“clear probability” standard, failing to establish eligibility
for asylum forecloses eligibility for withholding of removal.
Alvarez-Santos v. INS, 332 F.3d 1245, 1255 (9th Cir. 2003).
A. Hussain Did Not Demonstrate Past Persecution.
Hussain testified to incidents of generalized violence that
do not rise to the level of persecution. Hussain argues the
physical attacks, death threats, economic harm, and
psychological harm he suffered “both independently and
cumulatively rose to the level of persecution.” The BIA

19a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 18 of 26

18

HUSSAIN V. ROSEN

disagreed, and the record in this case does not compel the
conclusion that the BIA erred.
1. The physical
persecution.

attacks

were

not

past

To establish past persecution, an applicant must show he
was individually targeted on account of a protected ground
rather than simply the victim of generalized violence. Ndom
v. Ashcroft, 384 F.3d 743, 753 (9th Cir. 2004) (“Where we
have found no persecution despite civil strife or random
violence, the reason has been the applicant’s failure to
establish that his or her persecutor was motivated by one of
the five statutory grounds.”), superseded by statute on other
grounds as recognized in Parussimova v. Mukasey, 555 F.3d
734, 739 (9th Cir. 2009); see also Rostomian v. INS,
210 F.3d 1088, 1089 (9th Cir. 2000) (determining petitioners
did not show past persecution where they “did not establish
that the [knife] attack was anything more than an act of
random violence during a period of significant strife”);
Prasad v. INS, 101 F.3d 614, 617 (9th Cir. 1996) (explaining
that in order to demonstrate past persecution “[i]t is not
sufficient to show [petitioner] was merely subject to the
general dangers attending a civil war or domestic unrest”).
Hussain based his past persecution claim on two events:
in 2007 the Taliban burned his jewelry shop along with other
shops in his hometown, and in 2012 the Taliban attacked a
convoy of cars that included Hussain. Because “[a]sylum
generally is not available to victims of civil strife, unless
they are singled out on account of a protected ground,”
Hussain needed to show he was “singled out” in his region
of Pakistan that is often subject to Taliban incursions.
Ochave v. INS, 254 F.3d 859, 865 (9th Cir. 2001). But
Hussain testified the burning of his shop was the result of a
general attack on the town that resulted in other shops being

20a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 19 of 26

HUSSAIN V. ROSEN

19

burned as well. And though others died in the attack,
Hussain did not testify to any individualized physical attacks
or threats. Likewise, Hussain provided no testimony that he
was a specific target of the Taliban’s attack on his convoy
rather than a general victim of a random raid. Cf. Gormley
v. Ashcroft, 364 F.3d 1172, 1177 (9th Cir. 2004) (explaining
that such attacks “do not rise to the level of [past]
persecution; robberies of this sort are an all too common
byproduct of civil unrest and economic turmoil”).
Substantial evidence supports the BIA’s conclusion that this
is not persecution. See Ochave, 254 F.3d at 865.
2. The other harms alleged do not qualify as
persecution.
Hussain also argues he was subjected to death threats,
economic harm, and psychological harm. 7 Hussain during
his testimony denied either he, his wife, or children were
ever threatened by the Taliban. Unfulfilled threats are very
rarely sufficient to rise to the level of persecution, and
Hussain has not made that showing here. Hoxha v. Ashcroft,
319 F.3d 1179, 1182 (9th Cir. 2003) (holding that the
unfulfilled threats in that case constituted “harassment rather
than persecution”). While his father was once threatened by
a group of Sunni Muslims (not the Taliban), no harm ever
came to his father, mother, or siblings. Hussain’s testimony

7

Hussain fainted during his bond hearing, which he argues was a
result of the psychological harm he experienced in Pakistan. While
psychological harm may constitute persecution, see Mashiri v. Ashcroft,
383 F.3d 1112, 1120 (9th Cir. 2004), there is no evidence in the record,
other than Hussain’s attorney’s assertions, that his fainting during his
hearing was due to past psychological harm rather than for some other
reason.

21a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 20 of 26

20

HUSSAIN V. ROSEN

and documentation do not support his assertion on appeal
that he received death threats.
“We have defined economic persecution as ‘substantial
economic disadvantage’ that interferes with the applicant’s
livelihood . . . .” He v. Holder, 749 F.3d 792, 796 (9th Cir.
2014) (citation omitted). While the record reflects that
Hussain’s jewelry shop—along with other shops in the
town—was burned in 2007 and he lost jewelry stock in the
2012 convoy attack, Hussain did not detail the actual impact
of these losses and was afterward able to “continue[] his
Tailoring job.” “[M]ere economic disadvantage alone does
not rise to the level of persecution.” Gormley, 364 F.3d at
1178. Though Hussain undoubtedly experienced hardship
from his shop burning, this harm also lacks the individual
targeting necessary to show persecution because other shop
owners in his village experienced the same losses. And
while the burning of the store occurred in 2007 and the
convoy attack in 2012, Hussain did not leave the country
until 2015. As he was “able to continue working during that
period . . . substantial evidence supports the BIA’s
determination that [the petitioner] did not suffer
persecution” based on economic harm. He, 749 F.3d at 796.
3. Considered cumulatively, Hussain did not
demonstrate past persecution.
Even considered cumulatively, Mashiri, 383 F.3d at
1120–21, Hussain’s claims of generalized physical attacks,
contradictory testimony of death threats, unspecified
economic harm, and unsubstantiated psychological harm do
not rise to the level of targeted persecution. Where a country
is embroiled in “indiscriminate violence,” citizens of that
country are only eligible for asylum if they can demonstrate
that “they are singled out on account of a protected ground.”
Delgado-Ortiz v. Holder, 600 F.3d 1148, 1151 (9th Cir.

22a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 21 of 26

HUSSAIN V. ROSEN

21

2010). Hussain did not carry his burden to show past
persecution and this court is not compelled to reverse the
BIA’s determination that the IJ correctly found “the violence
created by the Taliban . . . basically targets everybody.”
B. The Pakistani Government Is Not Unwilling or
Unable to Prevent Harm.
Hussain also failed to demonstrate the third prong of his
persecution claim—that his persecution was “committed by
the government, or by forces that the government was unable
or unwilling to control.” Baghdasaryan, 592 F.3d at 1023.
Hussain does not dispute the Pakistani government’s
willingness to control the Taliban, but contends he was
persecuted and will be again due to the government’s
inability to eradicate the Taliban.
Hussain argued that “the police do[] not provide any
protection to the Shias, and the Pakistan government is also
not helping or protecting Shias.” But Hussain never claimed
that he reported the 2007 or 2012 attacks to law enforcement
authorities or ever sought police assistance, which we
balance in our analysis of the BIA’s determination. See
Bringas-Rodriguez v. Sessions, 850 F.3d 1051, 1069 (9th
Cir. 2017). Hussain maintained he did not report the attacks
because the police provide no protection. But even if the
government’s response to these two particular events was
lacking, the standard is not that the government can prevent
all risk of harm. This is effectively the standard pressed by
Hussain. Such a requirement could not even be met by the
United States or the European Union, where terrorist attacks
unfortunately harm innocents too frequently. Instead, we
have reasonably determined that a country’s government is
not “unable or unwilling” to control violent nonstate actors
when it demonstrates efforts to subdue said groups. See
Mansour v. Ashcroft, 390 F.3d 667, 673 (9th Cir. 2004)

23a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 22 of 26

22

HUSSAIN V. ROSEN

(finding the Egyptian government was not unable or
unwilling to control terrorists because “the relevant State
Department Profile reflected the fact that Egyptian
authorities have prosecuted those who have committed ‘acts
of terrorism’ against Christians”); Rahimzadeh, 613 F.3d at
922–23 (finding the Danish government was not unable or
unwilling to control extremists based on “active efforts to
address and control violence by radical religious groups”).
The BIA reviewed the country reports and recognized
that “the Pakistani government has made significant efforts
to combat terrorist organizations and sectarian violence,”
and the record reflected “multiple counterinsurgency and
counterterrorism operations in [Hussain’s home region] to
eradicate militant safe havens.” These operations produced
a substantial reduction in terror-related fatalities in Pakistan
from 11,704 in 2009 to 1,720 in 2016. Although the record
also reflects that the Taliban continues to operate in regions
of Pakistan, “[t]he possibility of drawing two inconsistent
conclusions from the evidence does not prevent an
administrative agency’s finding from being supported by
substantial evidence.” Go, 640 F.3d at 1054 (citation
omitted). Considering the government’s efforts we are not
compelled to conclude that the Pakistani government is
entirely unable to control the Taliban—even assuming the
government did not prevent or effectively punish the two
specific attacks Hussain experienced. See Doe v. Holder,
736 F.3d 871, 878 (9th Cir. 2013) (“[U]nwillingness or
inability to control persecutors is not demonstrated simply
because the police ultimately were unable to solve a crime
or arrest the perpetrators . . . .”).

24a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 23 of 26

HUSSAIN V. ROSEN

23

C. It Would Not Be Unreasonable for Hussain to
Relocate Within Pakistan.
Hussain contends that he would be at risk of future
persecution if he were deported. Importantly, Hussain’s
claims of future persecution were focused on the risks that
would arise if he returned to his hometown in Parachinar.
But “[a]n applicant does not have a well-founded fear of
[future] persecution if the applicant could avoid persecution
by relocating to another part of the applicant’s country,”
unless doing so would be unreasonable under the applicant’s
circumstances. 8 C.F.R. § 1208.13(b)(2)(ii); see also Kaiser
v. Ashcroft, 390 F.3d 653, 659 (9th Cir. 2004).
Relocation is generally not unreasonable solely because
the country at large is subject to generalized violence.
8 C.F.R. § 1208.13(b)(3). The BIA noted that the country
reports suggest Taliban attacks are “more prevalent” in some
parts of Pakistan than others. Thus “the applicant shall bear
the burden of establishing that it would not be reasonable for
[them] to relocate, unless the persecution is by a government
or is government-sponsored.”
Id. § 1208.13(b)(3)(i).
Because Hussain never claimed to fear the government or a
government-sponsored group, that burden is properly placed
on him to demonstrate why relocation is unreasonable. Id.
Hussain first argues it would be unreasonable for him to
relocate within Pakistan because “his parents, wife, four
children, and nine of his siblings all live in Parachinar . . . .
It would be a hardship” to require him to relocate to “an
unfamiliar town of Pakistan without his family.” This is a
strange argument. Surely relocating to an unfamiliar town
in Pakistan—while no doubt some inconvenient distance
from his family—would pose less of a hardship for his
family than relocating halfway across the globe to the United
States?

25a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 24 of 26

24

HUSSAIN V. ROSEN

Hussain also argues that relocating would be difficult
because he may have to live in a rented space or with a host
family, and there are government restrictions and special
permission needed to travel through certain areas. See
8 C.F.R. § 1208.13(b)(3). But anyone who moves out of
their home and is unable to outright buy a new house would
need to live with others or in a rented space. That relocation
might be inconvenient or undesirable does not make it
unreasonable. And the referenced travel restrictions and
special permission requirements only apply to areas in the
FATA region with high instances of unrest due to security
concerns—but those are the very areas Hussain would
assumedly seek to avoid. Hussain did not show that there is
restricted freedom of movement in other regions.
Hussain also cannot successfully argue that relocation is
unreasonable because the country at large is subject to
generalized violence, because he did not show he is at risk
of country-wide targeted persecution. As the BIA noted,
violent attacks were less prevalent in other areas outside of
Hussain’s hometown.
No country is immune from
generalized violence. Every country, even our own, has
been subjected to some instances of “generalized” violence.
For example, we have seen our own violent terrorist attacks,
robberies and muggings targeting unfortunate passersby, and
riots resulting in destroyed properties, looting, and physical
injuries. Acknowledging that a particular country is
currently plagued by generalized crime and violence cannot
be a basis for granting asylum to any citizen of that country
in the United States.
By failing to show either past personal persecution or
that it would be unreasonable to expect him to relocate to
avoid future persecution, Hussain failed to provide evidence
to compel reversal of the BIA’s decisions to deny asylum

26a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 25 of 26

HUSSAIN V. ROSEN

25

and withholding of removal. See Gonzalez-Hernandez v.
Ashcroft, 336 F.3d 995, 1001 n.5 (9th Cir. 2003).
V. CAT PROTECTION
To succeed on a claim under CAT, Hussain must show
it is “more likely than not that he . . . would be tortured if
removed to the proposed country of removal.” 8 C.F.R.
§ 1208.16(c)(2). Hussain was required to show that he faces
a “particularized threat” of torture, Dhital v. Mukasey,
532 F.3d 1044, 1051 (9th Cir. 2008) (citation omitted), and
as discussed above, he failed to make that showing. More
crucially, Hussain never alleged, in the record or in his
testimony, that he ever suffered any harm—“severe pain or
suffering”—that rose to the level of torture. 8 C.F.R.
§ 1208.18(a)(1). Substantial evidence supports the BIA’s
determination that Hussain cannot meet his burden to obtain
CAT protection. 8
VI.

CONCLUSION

The IJ ensured Hussain received due process by
providing multiple opportunities to testify regarding his
experiences with the Taliban in Pakistan. Hussain never
alleged he was personally targeted by the Taliban and his
testimony was consistent with an environment of
8

Hussain argues the country conditions report should fulfill his
burden under CAT. A report describing general persecution “is
insufficient to compel the conclusion that Petitioner would be tortured if
returned.” Jiang v. Holder, 754 F.3d 733, 740 (9th Cir. 2013). Nor do
Hussain’s allegations that the government did not respond to the 2007
Taliban attack suffice, as the Pakistan government “does not ‘acquiesce’
to torture where the government actively, albeit not entirely successfully,
combats the illegal activities.” Del Cid Marroquin v. Lynch, 823 F.3d
933, 937 (9th Cir. 2016).

27a

Case: 18-70780, 01/11/2021, ID: 11958213, DktEntry: 60-1, Page 26 of 26

26

HUSSAIN V. ROSEN

generalized violence. The BIA’s conclusion that he failed to
meet the burden for either asylum or withholding of removal
was supported by substantial evidence. So too was its
determination that Hussain did not show that safe relocation
within Pakistan was unreasonable and that he failed to meet
his burden under CAT.
PETITION DENIED.

28a

Appendix D
Case: 18-70780, 06/28/2018, ID: 10926298, DktEntry: 12, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

JUN 28 2018

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

BILAL HUSSAIN,

No.

Petitioner,

18-70780

Agency No. A209-171-424

v.
ORDER
JEFFERSON B. SESSIONS III, Attorney
General,
Respondent.

Before: Peter L. Shaw, Appellate Commissioner.
The motion to proceed in forma pauperis (Docket Entry No. 2) is granted.
The Clerk shall amend the docket to reflect this status.
Respondent has filed a statement of non-opposition to the motion and
supplemental motion to stay removal pending review (Docket Entry Nos. 1,
8). Pursuant to Ninth Circuit General Order 6.4(c), the temporary stay of removal
continues in effect until issuance of the mandate or further order of the court.
The certified administrative record has not been filed. The certified
administrative record is due July 27, 2018.
The opening brief is due September 27, 2018; the answering brief is due
November 26, 2018; and the optional reply brief is due within 21 days after service
of the answering brief.

MBI/MOATT

29a

Appendix E

•.

(5 of 393)
RESTRICTED Case: 18-70780, 06/03/2019, ID:
DktEntry:
25-2, Page 1 of 389
U.S.11317063,
Dcpartuo
of Justice
Executive Office for Immigration Review
Board ofImmigration Appeals
Office ofthe Clerk
5/07 Leesburg Pike, Suite 2000
Falls Church, Virginia 22041

Rizvi, Salmah Yasmeen
Ropes & Gray LLP
2099 Pennsylvania Ave. NW
Washington, DC 20037

DHS/ICE - Office of Chief Counsel
10400 Rancho ~oad
Adelanto, CA 92301
Received
Departmflnr of Justice

JUL IO 20!8
Name: HUSSAIN, BILAL

A 209-171-424
Ex~uvtf Oifica for
Immigration Review

Date of this notice: 3fflJ'72IO'lilln Court, Adelanto, CA

Enclosed is a copy of the Board's decision and order in the above-referenced case.
Sincerely,

Donna Carr
Chief Clerk

Enclosure
Panel Members:
Hunsucker, Keith E.
Geller, Joan B
Creppy, Michael J.

r. .:.11;~Ar
Userteam: Docket

000001
30a

(6 of 393)
RESTRICTED Case: 18-70780, 06/03/2019, ID:
DktEntry:
25-2, Page 2 of 389
U.S.11317063,
Depart1CJ
of Justice
Executive Office for Immigration Review
Board ofImmigration Appeals
Office of the Clerk
5107 leesburg Pike, Suire 2000
Falls Church, Virginia 2204/

HUSSAIN, BILAL
103 SENECA ST
STATON ISLAND, NY 10310

OHS/ICE •
10400 Ran
Adelanto,

Et..
<>Roa

A 92301

p;

,,hief Counsel
Received

'~-·
~ ·~

Department of Justice

;1
.•

'JUL 1 0 2018
Name: HUSSAIN, BILAL

A 209-171-424

Execum,e Office for
Immigration Review
Immigration Court. Adelanto, CA

Date of this notice: 3/13/2018

Enclosed is a copy of the Board's decision in the above-referenced case. This copy is being
provided to you as a courtesy. Your attorney or representative has been served with this
decision pursuant to 8 C.F.R. § 1292.S(a). If the attached decision orders that you be
removed from the United States or affirms an Immigration Judge's decision ordering that you
be removed, any petition for review of the attached decision must be filed with and received
by the appropriate court of appeals within 30 days of the date of the decision.
Sincerely,

OOYUtL CW\A)
Donna Carr
Chief Clerk

Enclosure
Panel Members:
Hunsucker, Keith E.
Geller, Joan B
Creppy, Michael J.

f'.~aiikAr

Userteam: Docket

000002
31a

(7 of 393)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 3 of 389

()

0

U.S. De_partment of Juitice

Decision of the Board oflmmigration Appeals

Executive Office for Immigration Review
Falls Church, Virginia 22041

File: A209 171 424 - Adelanto, CA

Date:

MAR 1 3 2018

In re: Bilal HUSSAIN
IN REMOVAL PROCEEDINGS
APPEAL
ON BEHALF OF RESPONDENT: Salmah Y. Rizvi, Esquire
APPLICATION: Asylum; withholding of removal; Convention Against Torture

The respondent, a native and citizen of Pakistan, appeals the Immigration Judge's April 11,
2017, decision denying his applications for asylum, withholding of removal, and protection
under the Convention Against Torture. See sections 208(b)(l)(A) and 241(b)(3)(A) of the
Immigration and Nationality Act, 8 U.S.C. §§ I 158(b)(l)(A), 1231(b)(3)(A); 8 C.F.R.
§§ 1208.16(c), 1208.18(a). The Department of Homeland Security has not responded to the
appeal. The appeal will be dismissed.
We review the findings of fact, including the determination of credibility, made by the
Immigration Judge under the "clearly erroneous" standard. 8 C.F.R. § I 003.1 (d)(3 )(i). We review
all other issues, including issues of law, discretion, or judgment, under a de novo standard.
8 C.F.R. § 1003.l(d)(3)(ii).
The respondent argues on appeal that his due process rights were violated because the
Immigration Court hearings were not conducted in his native language of Pashto
(Respondent's Br. at 22-24). Due process requires that removal proceedings be translated into a
language the alien can understand. See He v. Ashcroft, 328 F.3d 593, 598 (9th Cir. 2003). The
record indicates that the respondent's removal proceedings were conducted in Urdu, which his
asylum application indicates he speaks fluently (Exh. 3). The respondent did not indicate at any
point during his hearings that he was unable to understand the Urdu interpreter, nor did the
interpreter express any difficulty understanding the respondent. See Siong v. INS, 376 F.3d 1030,
1041 (9th Cir. 2004) (noting that when determining whether a translation was incompetent, an
adjudicator should consider direct evidence of incorrectly translated words, unresponsive answers
by the witness, and expressions of difficulty understanding what is said). Although there were a
few instances in which the respondent's answers were confusing (Tr. at 31-32, 36), the majority
of his answers were intelligible and adequately responsive to the questions asked. See id.
Additionally, the respondent has not shown he was prejudiced by not having a Pashto
interpreter because he does not proffer any facts or aspects of his claim he was purportedly unable
to present. See Oshodi v. Holder, 729 F.3d 883, 896 (9th Cir. 2013) (noting that due process
requires the alien show "that the outcome of the proceedings may have been affected by the
alleged violation" (emphasis omitted) (quoting Zo/otukhin v. Gonzeles, 417 F.3d 1073, 1076
(9th Cir. 2005))). Therefore, we conclude that the respondent has not established that his due
process rights were violated because he did not have a Pashto interpreter.

000003
32a

(8 of 393)
RESTRICTED Case:/1,
18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 4 of 389

C>

A209 171 424

Turning to the respondent's application for asylum and withholding of removal under the Act,
we affirm the Immigration Judge's determination that the respondent has not satisfied his burden
of proving that he was or will be persecuted upon return to Pakistan. The Immigration Judge
correctly concluded that the respondent has not established that he suffered past persecution in
Pakistan (IJ at 7). 8 C.F.R. §§ 1208.13(b)(I), 1208.16(b)(l). Although the Taliban attacked the
respondent's hometown in 2007 and burned several buildings, including his jewelry shop, the
respondent testified that he was never physically harmed or personally threatened in Pakistan (IJ at
5, 7; Tr. at 34-38). To the extent the respondent argues on appeal that the Immigration Judge erred
in not probing into the incident in 2012 where other cars in the respondent's convoy were allegedly
attacked by the Taliban, he has not shown that he was prejudiced by this alleged violation. See
Oshodi v. Holder, 729 F.3d at 896. His proffered claim is essentially that the Taliban attacked
nearby vehicles and he got into a car accident as he was fleeing the attack (Respondent's Br. at 4).
This does not constitute evidence of past persecution. See Matter of Diaz, 10 I&N Dec. 199, 203
(BIA I 963) (noting that accidental harm resulting from dangerous internal political situations does
not constitute persecution).
The Immigration Judge correctly determined that any future harm the respondent may suffer
in Pakistan would not constitute "persecution" under the Act because he has not shown that the
Taliban is either aligned with the Pakistani government or that the government is unable or
unwilling to control the Taliban (IJ at 9). See Castro-Martinez v. Holder, 674 F.3d 1073, 1080-82
(9th Cir. 2011) (stating that persecution is "[t]he infliction of suffering or harm, under government
sanction"); Barrios v. Holder, 581 F.3d 849, 854 (9th Cir. 2009) (noting that violence or
discrimination inflicted by private actors does not constitute persecution under the Act if it is not
condoned by the government and if the government takes reasonable steps to prevent and respond
to it). The 2015 and 2016 Department of State Human Rights Reports indicate that the Pakistani
government has made significant efforts to combat terrorist organizations and sectarian violence
(IJ at 3-4; Exh. 2 at 1-2, 7, 12, 15, 20; Exh. 4 at 2, 11-12, 14-15, 20). See Singh v. Holder,
753 F.3d 826, 831-32, 836 (9th Cir. 2014) (holding that the agency is permitted to rely on country
reports, even when those reports contain inconsistencies or are contrary to evidence submitted by
the alien). Although terrorist attacks continue in Pakistan, this evidence is insufficient, on its own,
to demonstrate that the government is unable or unwilling to control the Taliban. See
Nahrvani v. Gonzales, 399 F.3d 1148, 1154 (9th Cir. 2005) (affirming the agency's conclusion
that the alien had not shown that the German government was unable or unwilling to control the
persecutors where police investigated the crimes but were ultimately unable to solve them);
see also Afriyie v. Holder, 613 F.3d 924, 931-32 (9th Cir. 2010) (holding that an adjudicator must
consider both the government's willingness to control the persecutors, as well as the effectiveness
of their efforts to do so).
The only other evidence the respondent presents to show that the Pakistani government is
unable or unwilling to protect him from harm by the Taliban is his testimony that no police or
military came to his hometown to assist following the 2007 attack (IJ at 5; Tr. at 36). Thus, the
Immigration Judge did not clearly err in finding that the respondent has not shown that the
Pakistani government would be unable or unwilling to protect him from the Taliban. See
Matter ofZ-Z-0-, 26 i&N Dec. 586,590 (BIA 2015); cf Avetova-E/isseva v. INS, 213 F.3d 1192,
1198 (9th Cir. 2000) (concluding that the Russian government was unable or unwilling to protect

2

000004
33a

(9 of 393)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 5 of 389

()

A209 171 424
•

the alien from persecution because the documentary evidence showed that the government was
"powerless to stop" the persecution).
We also affirm the Immigration Judge's determination that the respondent did not show
that he could not reasonably relocate to avoid harm in Pakistan (IJ at 8-9). 8 C.F.R.
§§ 1208.13(b)(2)(ii), 1208.16(b)(2). Because the respondent has not shown past persecution and
does not fear persecution by the government or a government-sponsored group, he bears the
burden of establishing that he could not reasonably relocate to another part of Pakistan in order to
avoid future persecution. See Matter ofM-Z-M-R-, 26 I&N Dec. 28, 33-36 (BIA 2012); see also
INSv. Ventura, 537 U.S. 12, 18 (2002) (an individual who can relocate safely within his
home country ordinarily cannot qualify for asylum); Afriyie v. Holder, 613 F.3d at 924, 934. The
Immigration Judge did not clearly err in finding that the respondent's fear of the Taliban was not
country-wide (IJ at 8). See Matter ofFuentes, 19 I&N Dec. 658, 663 (BIA I 988); see also
Melkonian v. Ashcroft, 320 F.3d 1061, 1069 (9th Cir. 2003) (noting that while an applicant for
asylum need not demonstrate a country-wide threat of persecution, the ability of an applicant to
safely relocate may be considered in determining whether the applicant's fear is well-founded).
The respondent's testimony focused on his fear of persecution in his hometown in Pakistan
(IJ at 5-6, 8). He did not testify with any detail regarding the harm he would face outside of his

hometown. Although the 2015 and 2016 country reports discuss incidents of terrorist attacks in
all provinces within Pakistan, they suggest that attacks are more prevalent in some parts of Pakistan
over others (Exh. 2 at 1-2, 19-21; Exh. 4 at 2, 19-22). Overall, the Immigration Judge did not
clearly err in finding that the respondent could avoid persecution by relocating to another part of
Pakistan (IJ at 8-9). See Matter ofZ-Z-O-, 26 I&N Dec. at 590; 8 C.F.R. §§ 1208.13(b)(2)(ii),
1208.16(b)(2). Additionally, because the respondent presented little evidence of the hardship he
would suffer if he relocated to another part of Pakistan, he has not satisfied his burden of
demonstrating that relocation would be unreasonable.
8 C.F.R. §§ 1208.13(b)(3)(i),
1208.l 6(b)(3)(i).
Based on the foregoing, we agree with the Immigration Judge that the respondent did not
satisfy his burden of proof for asylum or withholding of removal. We need not address the
respondent's remaining arguments regarding these applications (Respondent's Br. at 13-16,
26-29). 1 INS v. Bagamasbad, 429 U.S. 24, 25-26 (1976) (stating that as a general rule, courts and
agencies are not required to make findings on issues the decision of which is unnecessary to the
results they reach); Matter ofS-H-, 23 l&N Dec. 462, 465 (BIA 2002). We therefore affirm the
Immigration Judge's denial of these applications.
Regarding the respondent's application for protection under the Convention Against Torture,
we discern no clear error in the Immigration Judge's factual finding that the respondent has not
shown that he will more likely than not be tortured by, at the instigation of, or with the consent or
acquiescence of a public official or other person acting in an official capacity (IJ at I 0-11 ).
1

To the extent the respondent argues that the Immigration Judge did not explain to him the
requirements for asylum and withholding ofremoval prior to the hearing, he has not proffered any
additional facts or evidence that he would have presented absent the alleged violation. See
Oshodi v. Holder, 729 F.3d at 896.
3

000005
34a

(10 of 393)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 6 of 389
J;\209 IJI 424

8 C.F.R. § 1208.IS(a); see Matter ofZ-Z-O-, 26 I&N Dec. at 590. Acquiescence of a government
official requires that they were aware of the torture but "remained willfully blind to it, or simply
stood by because of their inability or unwillingness to oppose it." Cole v. Holder, 659 F.3d 762,
771 (9th Cir. 2011) (quoting Bromfieldv. Mukasey, 543 F.3d 1071, 1079 (9th Cir. 2008)). As
discussed above, the 2015 and 2016 country reports for Pakistan indicate that the Pakistani
government has made significant efforts to combat terrorist organizations and sectarian violence
(IJ at 3-4; Exh. 2 at 1-2, 7, 12, 15, 20; Exh. 4 at 2, 11-12, 14-15, 20). Although the 2016 country
report notes that police often failed to protect religious minorities-including Shia Muslims-from
attacks by various actors, the report also states that there were improvements in police
professionalism and local authorities protecting minorities from discrimination and communal
violence (Exh. 4 at 12). The fact that the respondent testified that no police or military came to
his hometown to assist following the 2007 attack by the Taliban is insufficient, on its own, to
establish that a public official would be willfully blind to the respondent's future torture, or "simply
[stand] by because of [his or her] inability or unwillingness to oppose" the Taliban (IJ at 5, I 0-11;
Tr. at 36). Cole v. Holder, 659 F.3d at 771. Thus, the respondent has not satisfied his burden of
proving that he will more likely than not be tortured by the Taliban with the consent or
acquiescence of a public official or other person acting in an official capacity (IJ at I 0-11 ).
8 C.F.R. § 1208.IS(a). We therefore affirm the Immigration Judge's denial of the respondent's
application for protection under the Convention Against Torture. Accordingly, the following
orders will be entered.
ORDER: The respondent's appeal is dismissed

FOR THE BOARD

4

000006
35a

Appendix F

·-

(468 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 132 of 389

!''
,G..i.·..

-1..-{·•

....

,·

'<{
"" IMMIGRATION COURT
10250 RANCHO RD., SUITE 201A
ADELANTO, CA 92301
In the Matter of
Case No.: A209-171~424
HUSSAIN, BILAL
Respondent

IN REMOVAL PROCEEDINGS
ORDER OF THE IMMIGRATION JUDGE

This is a summary of the oral decision entered on
~ ·{ l t { ( 7 ,
This memorandum is solely for the convenience of the parties.. If the
proceedings should be appealed or reopened, the oral decision will become
the oJticial opinion in the case,
"'>. 1
·[ lY The respondent was ordered removed from the United States to ~:rf-t-r..._
eF in t~s altsFRatixrs ts ,

Respondent's application for voluntary departure was denied and
respondent was ordered removed to
alternative to.

or in the

Respondent's application for voluntary departure was granted until
upon posting a bond in the amount of$
with an alternate order of removal to.

Resp91dent's application for:
.. . /
[~Asylum was ( )granted ( ...,-denied( )withdrawn.
[ "] Withholding of removal was ( ) granted ( l)'C!enied
) withdrawn.
•:
[ ] A Waiver under Section
was ( )granted ( )denied.
)withdrawn;'
[ ] Cancellation of removal under. section 240A(a) was ( )granted . ( · )denied ··.. ,<';·\.
( ) withdrawn.
·-~"'·"''" ,.. ,
Respondent's application for:
·,
[ ] Cancellation under section 240A(b) (1) was (
granted·
) denied
) withdrawn. If granted, it is ordered that the respondent be issued
all appropriate documents necessary to give effect to this order.
Cancellation under section 240A(b) (2) was ( ) granted· ( ) denied
I[
( )withdrawn, If granted it is ordered that the respondent be issued
all appropriated documents necessary to give effect to this order.
Adjustment of Status under Section
was ( )granted ( )denied
( )withdrawn, If granted it is ordered that the respondent be issued
. /
.
all appropriated documents_p.ecessary to give effect to this order.
[V]
Respondent's application of ( t,1"withholding of removal ( ) deferral of
removal under Arti.9"' III of the Convention Against Tor.ture was
( · ) granted ( 0
denied ( ) withdrawn.
.
Respondent's status was rescinded under section 246.

·

Respondent '.is admitted to the United States as a
until
.
As a s:ondi1;1~on of admission, respondent is to pasta$ _ _ _ _ bond.
[-~; Respohdent ~nowin\llY filed a frivolous asylum application after proper
l n~c_e .. _,· .
J · ··,Resppndertt was .advised of the limitation on discretionary relief for
,,..,·fa~lure to ap~_ear as ordered in the Immigration Judge's oral decision.

[/] P~oceedings were terminated,
[. ] ..-Other: ____' • - - - - - - - - - - - - - - - - - = - - - - - - - - - Date:

S•~ 39, 2Q1G

A.OA.tl.. ti, U:Jl7

'

R_

Immigration Judge

Appeal: W a i v ~ Appeal Due By:

S/tt/17

000132
36a

(469 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 133 of 389
a,

~

__ ,. ......

·-

::.:·-t..

,...,....

'

., /
ALIEN NUMBER: 209-171-424

NAME: HUSSAIN, _BILAL

.
CERTIFICATE OF SERVICE
THIS D09JMENT WAS SERVED BY: MAIL (M)
PERSONAL SERVICEA'P°?J
TO: [!.,( ALIEN
[ ] ALIEN c/o Custodial Officer
[ ] ALIEN' ~/REP [L.l"'DHS
DATE:
1-t / 11 ( 17
BY: COURT STAFF ~__,,,..:;T-,.._,..--.'--'-----~--------~Attachments_;_I_J_EOIR-:33
[ ] EOIR-28
[ ] Legal Services List • [ ] Other -

Q6

)

-

.

_,J

\

,-

,
.;

.~-......

000133
37a

\

Appendix G

(470 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 134 of 389

0

UNITED STATES DEPARTMENT OF JUSTICE
EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
UNITED STATES IMMIGRATION COURT
ADELANTO, CALIFORNIA

April 11, 2017

File: A209-171-424
In the Matter of

IN REMOVAL PROCEEDINGS

BILAL HUSSAIN
RESPONDENT
CHARGE:

Section 212(a)(7)(A)(i)(I) of the Immigration and Nationality Act, as
amended, in that the respondent is an immigrant who at the time of
application for admission was not in possession of valid immigration
documents.

APPLICATIONS:

Asylum, withholding of removal under INA Section 241(b)(3), and
withholding of removal under the Convention Against Torture

ON BEHALF OF RESPONDENT: Prose
ON BEHALF OF DHS: Curtis White, DHS Assistant Chief Counsel

ORAL DECISION OF THE IMMIGRATION JUDGE
PROCEDURAL HISTORY
The respondent is a 35-year-old male who is a native and citizen of
Pakistan. The United States Department of Homeland Security has brought these
removal proceedings against the respondent under the authority of the Immigration and

I

Nationality Act. Proceedings were commenced with the filing of the Notice to Appear
with the immigration court. 8 C.F.R. §1003.14(a).

~ Exhibit 1.

. .. •[ Formatted: Underline

000134
38a

(471 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 135 of 389

0

()

The Notice to Appear was served upon the court fsiGj-on September 8,
2016. The Notice to Appear alleged that the respondent is a native and citizen of
Pakistan. It also alleged the respondent entered the United States at or near Olay
Mesa, California, on or about August 13, 2016. At that time, the respondent did not
possess any valid immigration documents, and he was oot iaspected or at least not
admitted or paroled after inspection by an immigration officer. Accordingly, the Notice
to Appear charges,! the respondent as inadmissible under INA Section
212{a)(7)(A){i)(I).
On March 10, 2016, the respondent admitted all five allegations in the
Notice to Appear. Accordingly, the court sustained the charge of removal. Pakistan
was designated as the country of removal. On December 20, 2016, the respondent
filed his application for asylum and both forms of withholding. On April 11, 2017, the
court conducted a merits hearing. The respondent was the only witness. For the
foregoing reasons, the court must deny the respondent's application for asylum and
both forms of withholding.
EXHIBTS
The following exhibits were admitted in this case:
Exhibit 1

-= the Notice to Appear

Exhibit 2 - the Department of State's Human Rights Report on Pakistan for 2015
Exhibit 3 - the respondent's asylum application
Exhibit 4 - the Department of State's Human Rights Report on Pakistan for 2016
Exhibit 5 - the frivolous warnings
Exhibit 6 - the respondent's filing, including a statement from his father and an agency,
various certificates and identification cards, and news articles concerning country
conditions in Pakistan

A209-171-424

April 11, 2017

2

000135
39a

(472 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 136 of 389

()

tJ
··-

Exhibit 7

-= the respondent's submission of an additional article regarding a bombing in

his hometown
Exhibit 8 - the Department of State's International Religious Freedom Report, marked
for identification purposes only
Regardless of whether the court further mentions Exhibits 1 through 7
during the course of this oral decision, it should be noted that the court considered all of
the exhibits in their totality prior to reaching a decision.
The court alse-notes that the respondent has claimed a fear of returning to
Pakistan due to the Taliban. Thus, the court shall specifically address current country
conditions in relation to the Taliban. IAru:1-!he court specifically refers to Exhibit 2, the
2015 Human Rights Report. This report states, "Continuing terrorist violence and
human rights abuses by non-state actors contributed significantly to human rights
challenges in the country. In June 2014, the government and military began Operation
Zarb-e-Azb military campaign against militant and terrorist groups

mat North
. · ( Formatted: Underline

Waziristan." Id. at 1.
~

The 2015 country report also notes that due to the violence, abuse, and
social and religious intolerance by militant organizations and other nongovernmental
actors, there was "a culture of lawlessness in some parts of the country, particularly in
the provinces of Balochistan, Sindh, Khyber, Pakhtunkhwa ... , and the federally
administrative tribal areas also known as the FATA." Id at 2. It should be noted that

.!Formatted: Underline

~

the respondent is from Parachinar, which is located in the federal administrative tribal
[ Formatted: Underline

areas or FATA.

~

Exhibit 3, Page 1.

At Page 7 of the Department of State 2015 country report, it notes that the
military operations continued throughout the year but primarily in Waziristan. Due to a
terrorist attack at the Peshawar Army Public School, the Pakistani Parliament approved

A209-171-424

April 11, 2017

3

000136
40a

(473 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 137 of 389
•

0

a constitutional amendment to allow military courts to try civilians on terrorism, militancy,
sectarian violence, and other charges. Exhibit 2 at 12. This shows that the government
is making great efforts to try to control the violence that is committed by various militant
groups, including the Taliban.
The 2015 country report goes on to state that militant and terrorist activity
continued, including numerous suicide and other bombing attacks, in various locations
including the FATA. Militant groups including the Taliban targeted "civilians, journalists,
community leaders, security forces, law enforcement agents, and schools, killing
hundreds and injuring thousands with bombs, suicide attacks, and other forms of
violence."

)lL at 19.

Militant and terrorist groups also attacked religious minorities.

)lL

Formatted: Underline
Formatted: Underline

The military continued in its counterinsurgency and counterterrorist law
operations in the FATA. The government also acted throughout the country to weaken
terrorist organizations. In Parachinar, the police arrested gang members and Taliban
commanders who provided logistical support to the militants in the tribal areas. This is
Exhibit 2 at 20. All the following shows that the military is acUvely engaging the Taliban,
and the government as a whole is making efforts to stop them.

I

The court has also reviewed the 2016 human rights report for Pakistan.

,See generally, Exhibit 4. This document shows that the same conditions were

{ Formatted: Underline

occurring in Pakistan during the year of 2016. Thus, nothing had significantly changed
between the years 2015 and 2016. The articles the respondent submitted also show
that terrorist groups, including the Taliban, continue to engage in terrorist activity
against the civilian population as a whole.

~

. [ Formatted: Underline

Exhibits 6 and 7.

TESTIMONY OF THE RESPONDENT
The Rrespondent provided the following testimony on direct examination.
The respondent is 35 years old, and he was born in Parachinar, Pakistan. The

A209-171-424

April 11, 2017

4

000137
41a

(474 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 138 of 389

0

0

respondent is married and has four children, ages 13, 11, 4, and 3. His wife and
children live in his hometown. His parents also live in the same location. The
respondent has eight brothers, five of them who still live in his hometown. His four
sisters also reside at that location.
The respondent fears returning to Pakistan because he is a Shia Muslim.
He said that the Taliban are attacking Shias. He also stated that everyone in his
hometown has a problem with the Taliban.
The Rrespondent testified that in 2007, the Taliban were attempting to
pass through his town. However, the local population would not "give them the way."
The Taliban then attacked. They fired upon the people and on the marketplace. They
killed many people. At that time, the respondent was in a mosque to pray. He was not
injured. The Taliban also burned the shops in the area, including the respondent's
shop, which was a jewelry shop. The Taliban also blocked the roads in the area buc
&it none of the respondent's family members were killed during this attack.
The respondent claimed that no police or military came to help his
hometown. However, at one point, the Taliban were in the way, and the townspeople
engaged in a counterattack. The respondent also mentioned that the Taliban had the
help of some of the local Sunni population. The respondent stated that he never again
came in contact with the Taliban.
The respondent testified that he was in Peshawar, and a couple of boys
started to follow him. The respondent then ducked into a hotel that was for Shias. He
did this for his safety, and he was not hanmed at that time.
The respondent stated that he was not harmed or threatened by anybody
in Pakistan. He had not had any problems with the police or the military. After 2007, he
lived in his hometown until he left Pakistan in September 2015.

A209-171-424

April 11, 2017

5

000138
42a

(475 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 139 of 389

n-·'

0

The respondent stated that his wife and children were never harmed or
threatened in Pakistan. In 2015, some Sunnis in his village threatened his father
because he is a Shia Muslim. He was not harmed at that time. The Rrespondent's
mother, his brothers, and his sisters were not threatened or harmed in Pakistan.
The respondent stated that he does not fear the police or military in
Pakistan. However, he claims that they will not provide protection. He is also not afraid
of any government official. He is only afraid of the Taliban and their various actions.
There was no cross-examination. The respondent then gave an extended
statement. He was pointing out portions of the country report. which he believed
inferred that there is no police protection for the Shias in Pakistan. He also believed
that these reports showed the Pakistani government does not help the Shias. The
Rrespondent also mentioned the attack that occurred at the market in Parachinar, his
,. -I

Formatted: Underline

hometown. See also Exhibit 7. This is the deGrocket attack that the respondent was
referring to. It occurred more than 10 days ago. Nevertheless, the court believes the
respondent is providing truthful testimony.
The respondent also mentioned that the Taliban killed a committee of
Shias. Specifically, 28 persons were killed. The Rrespondent also stated that
"Everywhere ... we are being attacked, and there is no protection." The Rrespondent
claims that the Shias are being victimized by everyone.
The R,espondent also had pictures which he was not allowed to make
copies. These showed how individuals were being victimized. The pictures depicted
the dead bodies of friends in his hometown. They were caught on the road and cut to
pieces. The Rrespondent stated that these are very graphic photos.
The respondent also testified that the Pakistani government has not done
anything to assist the people in his hometown. He said that this has been the situation

A209-l 71-424

April 11, 2017

6

000139
43a

(476 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 140 of 389

r:·
.

0

)

for five years. The !<respondent also mentioned that roads have been blocked. The
!<respondent stated that to get to Peshawar, people had to travel through
AfghanistanPakistan to get there from his hometown to Peshawar. The !<respondent
said that the American army would assist them. The !<respondent also mentions that
the Taliban is killing people in Afghanistan.
The court finds that the respondent was a credible witness. He seemed to
be giving straightforward and forthright answers. He also testified consistently with his
asylum application. However, the court does not believe that the respondent is 100
percent accurate as to country conditions in Pakistan. Contrary to the respondent's
claims, it appears that the Pakistani government and military are making efforts to
control militant and terrorist groups, including the Taliban. Seec generally, Exhibits 2

{ Formatted: Underline

•

and 4.
ASYLUM
To qualify for asylum, an applicant bears the burden of demonstrating that
he meets the statutory definition of refugee. \NA Section 208(b)(1)(B)(i); 8 C.F.R.
§1208.13(a). A refugee is a person who is unable or unwilling to return to his country
due to past persecution or a well-founded fear of future persecution on account of race,
religion, nationality, membership in a particular social group, or political opinion. \NA
Section 101 (a)(42)(A); see-8 C.F.R. §_1208.13(b). The REAL ID Act specifies that the
applicant must establish that one of the five grounds was or will be at least one central
reason for persecution. Parussimova v. Mukasey. 555 F.3d 734, 740-41 (9th Cir. 2009) .
. In this case, the respondent was never subjected to any past harm. Even
during the Taliban attack in 2007, the respondent was not harmed. Therefore, the court
_. -( Formatted: Underline

shall conclude that the .respondent was not a victim of past persecution. ,See
- - Navas v.
INS, 217 F.3d 646, 655-56 (9th Cir. 2000); 8 C.F.R. §1208.13(b)(1).

A209-171-424

April 11, 2017

7

000140
44a

(477 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 141 of 389

O·

0

To satisfy the well-founded fear standard, an applicant must show that the
fear of persecution is based on a reasonable possibility that such harm will occur. INS
v. Cardoza-Fonseca, 480 U.S. 421,440 (1987); INS v. Stevie, 467 U.S. 407, 424-25
(0th Gire. 11984). A well-founded fear must be subjectively genuine and objectively
reasonable. S<ae-Rusak v. Holder, 734 F.3d 894, 896 (9th Cir. 2013). An applicant
satisfies the subjective component by credibly testifying that he genuinely fears
persecution. Duarte de Guinac v. INS, 179 F.3d 156, 159 (9th Cir. 1999). The objective
component is satisfied if the applicant shows a good reason to fear persecution in the
future by introducing credible, direct, and specific evidence that would support a
. --I Formatted: Underline

reasonable fear of persecution. ,-Id.
In this case, the court finds that the respondent is a credible witness.
Therefore, he has satisfied the subjective component. The respondent's fear of
persecution is also objectively reasonable. Any individual would fear the Taliban and
the harm and suffering that they cause in Pakistan. However, the respondent has not
established a well-founded fear of future persecution on account of a protected ground.
First of all, the respondent must show that his fear of persecution would be
{ Formatted: Underline

a country-wide persecution. See Kaiser v. Ashcroft, 390 F .3d 653, 659 (9th Cir. 2004 );
~

Melkonian v. Ashcroft, 320 F.3d 1061, 1069 (9th Cir. 2003). Additionally, the 9th Circuit
has determined that an individual does not have a nexus to a protected ground if he
fears general violence in his home country. ~Gormley v. Ashcroft, 364 F.3d 1172,
1177 (9th Cir. 2004); Ochave v. INS, 254 F.3d 859, 865 (9th Cir. 2001 ). This is
basically what the respondent fears, is that the general violence that the Taliban creates
in certain portions of Pakistan. This does not amount to a nexus. to a protected ground.
_ _ _ _ _Finally, the respondent has lived safely in Pakistan for many years. Even
after the 2007, in which he was not hurt, the respondent safely lived in Pakistan until the

A209-171-424

April 11, 2017

8

000141
45a

(478 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 142 of 389

0

0

year 2015 .. This reflects that there he can safely live in Pakistan to some extent.
Additionally, the court notes that there recently was a terrorist attack in the respondent's
C, -[

Formatted: Underline

hometown. ~ Exhibit 7. It4i+--this does not change the fact that the court believes

'

the respondent could live in other locations in Pakistan without fearing or suffering any
harm at the hands or the Taliban.
Finally, there is no indication that the respondent would suffer harm at the
hands of the Taliban in such a way that the government would be unable or unwilling to
control the Taliban. As established in Exhibits 2 and 4, the government has taken great
strides to crack down on the Taliban and stop the violence that group creates.
Therefore, based on all the foregoing, the court cannot grant the respondent's
application for asylum.
WITHHOLDING OF REMOVAL UNDER INA SECTION 241 (b){3l
For withholding of removal under the Act, an applicant must establish a
clear probability that his life or freedom would be threatened in his home country on
account of his race, religion, nationality, membership in a particular social group, or
political opinion. INA Section 241(b)(3)(A); Chen v. Ashcroft, 362 F.3d 611,617 (9th
Cir. 2004). To meet the clear probability standard, the applicant must prove it is more
likely than not that he will be persecuted on account of a statutorily protected ground. 8
{ Formatted: No underline

C.F.R. §1208.16(b)(1); see also Stevie, 467 U.S. ;,_t_425.
The clear probability standard required for withholding is more stringent
than the well-founded fear standard for asylum. Navas, 217 F.3d at 663. Therefore,
failure to satisfy the lesser burden required for asylum necessarily results in a failure to
demonstrate eligibility for withholding. Fisher v. INS, 79 F.3d 955, 961 (9th Cir. 1996)
(en bane). In this case, the respondent failed to prove that he was eligible for asylum.
Accordingly, he failed to meet the higher burden required for withholding under the Act,

A209-171-424

April 11, 2017

9

000142
46a

(479 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 143 of 389

0

I

and his application for such protection must be denied.

WITHHOLDING OF REMOVAL UNDER THE CONVENTION AGAINST TORTURE
Pursuant to the Convention Against Torture, the United States may not
remove an alien to a country where it is more likely than not that he would be tortured.
Torture must be directed against a person in the torturer's custody or physical control. It
must be inflicted by or with the consent or acquiescence of a public official or other
person acting in official capacity. 8 C.F.R. §1208.18(a)(1). The applicant bears the
burden of establishing that it is more likely than not that he would be tortured. 8 C.F.R.
§1208.16(c)(2); see also Zheng v. Ashcroft, 332 F.3d 1186, 1194 (9th Cir. 2003).

.. { Formatted: Underline

In assessing whether it is more likely than not that an applicant would be
tortured, all evidence relevant to the possibility of future torture should be considered.
Such evidence includes, but is not limited to: 1) evidence of past torture inflicted upon
the applicant; 2) evidence that the applicant can relocate to a part of the country of
removal where hej"s not likely to be tortured; 3) evidence of gross, flagrant, or mass
violations of human rights within the country of removal; and 4) other relevant
information regarding conditions in the country of removal. 8 C.F.R. §1208.16(c)(3)
In this case, there is no indication that the respondent was ever harmed in
the past, let alone tortured. There is also nothing in the record to indicate that the
government would torture the respondent simply for returning to Pakistan. In fact, the
respondent does not fear the government or filrLPOlice official. The court also notes
that the Taliban is only active in certain portions of Pakistan, which means that the
respondent can relocate to other portions of Pakistan and not be at risk of torture by the
Taliban. Finally, the court notes that there is no indication that the Taliban would torture
him at all. Even if that were the case, there is no indication that any government official

A209-171-424

10

April 11, 2017

000143
47a

(480 of 730)
RESTRICTED Case: 18-70780, 06/03/2019, ID: 11317063, DktEntry: 25-2, Page 144 of 389

n.

0

~. '

would consent or acquiesce to the respondent's torture. Therefore, based upon all the
foregoing, the respondent's application for protection under the Convention Against
Torture must be denied.
ORDERS
It is hereby ordered the respondent's application for asylum be denied.
It is also ordered the respondent's application for withholding of removal
under INA Section 241(b)(3) be denied.
It is also ordered that the respondent's application for withholding under
the Convention Against ')"orture be denied.
It is further ordered the respondent be ordered removed from the United
States to Pakistan.

Please see the next page for electronic
signature
JAMES M. LEFT
Immigration Judge

A209-l 71-424

April 11, 2017

11

000144
48a

(481 of 730)
RESTRICTED Case: 18-70780,
()06/03/2019, ID: 11317063, DktEntry: 25-2, Page 145 of 389

0

.,

/Isl/
Immigration Judge JAMES M. LEFT
leftj on June 28, 2017 at 3:09 PM GMT

A209-171-424

April 11, 2017

12

000145
49a

